March 18, 2014

General Lloyd J. Austin III
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
Commander, U.S. Forces–Afghanistan, and
 Commander, International Security Assistance Force

Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers
U.S. Army Corps of Engineers

On December 16, 2013, we issued a report examining the construction of an
incinerator system at Forward Operating Base (FOB) Sharana in Paktika province. 1 In
that report, we found, among other things, that the incinerator system was completed
nearly 3 years behind schedule and that the incinerators had unaddressed
construction deficiencies. As a result of these delays and deficiencies, the incinerators
had never been used, resulting in the waste of $5.4 million. 2 We recommended that
the Commanding General, U.S. Army Corps of Engineers (USACE), conduct an inquiry
into the circumstances of the acceptance of the incinerator facility at FOB Sharana and
the payment of $5.4 million to the contractor. We also recommended that, depending
on the results of this inquiry, the Commanding General determine whether any action
should be taken against the contracting officer(s).
In its written comments on our report, USACE concurred with our recommendation and
stated that based on our recommendation, it had conducted an inquiry that found the
incinerator facility was constructed in accordance with contract technical
specifications, proper training and testing had occurred in or about September 2012,
and an operable facility was turned over to its U.S. military customer in December
2012. USACE also noted that during the performance of the contract, several
procuring contract officers, administrative contracting officers, and contracting
officers’ representatives had been assigned to perform oversight for this construction
contract. USACE concluded that none of those personnel assigned to provide oversight
on the incinerator contract failed to appropriately perform their assigned duties on the
contract, and, as a result, no action would be taken against any of them.



1
  SIGAR Inspection Report 14-13, Forward Operating Base Sharana: Poor Planning and Construction Resulted
in $5.4 Million Spent for Inoperable Incinerators and Continued Use of Open-Air Burn Pits, Dec. 16, 2013.
2
  SIGAR reported on a similar instance in which USACE paid a contractor for work that was known to be
deficient. Specifically, we reported that, in December 2011, USACE paid DynCorp $70.8 million despite
contract performance issues. It also released DynCorp from contractual requirements, warranties, and latent
defects’ regarding its poor construction at the Kunduz Afghan National Army Garrison. (See SIGAR Inspection
Report 13-1, Kunduz ANA Garrison: Army Corp of Engineers Released DynCorp of All Contractual Obligations
Despite Poor Performance and Structural Failures, October 25, 2012.) In March 2013, USACE reported to
SIGAR that it had determined that the final contract settlement with DynCorp was “proper and reasonable,
although it was not favorable to the [U.S.] Government.”
Our report commended USACE on the promptness of its inquiry. However, we
questioned the thoroughness of the inquiry and the conclusions it reached.
Specifically, we noted that while USACE’s statements indicate that the incinerator
system was turned over to its military customer in fully operable condition in December
2012, and that the deficiencies identified were minor and could be addressed under
the warranty process, we found in our inspection that the deficiencies identified were
estimated to cost $1 million to repair and were never addressed. We also noted that
USACE did not question our findings that these deficiencies posed a safety hazard.
As our December 2013 inspection report noted, when FOB Sharana was closed in
October 2013, the entire base, including the incinerators, was transferred to the
Afghan Ministry of Defense. According to officials with U.S. Forces-Afghanistan, the
incinerators may “have already been deconstructed by the Afghans, presumably for
scrap.”
As a result of these concerns, we requested that USACE provide all documentation
supporting its conclusion that contracting personnel involved with the FOB Sharana
incinerator facility performed their duties appropriately. In response to this request,
USACE submitted nine documents to SIGAR that, according to USACE, were used for its
inquiry.
Our analysis of those nine documents continues to raise concerns about why the
contractor was not held responsible for the construction deficiencies and calls into
question the thoroughness of USACE’s inquiry. For example, in USACE’s comments to
our report, it stated that FOB Sharana’s plans were to deconstruct the incinerator as
part of the closure of the FOB and that it did not intend to operate the facilities. Thus,
USACE was not required to conduct any verification of deficiencies identified or take
any actions to correct deficiencies. However, documentation provided by USACE in
response to our inquiry clearly shows that USACE personnel, including a contracting
officer, made at least two attempts to have the contractor repair the construction
deficiencies identified. These efforts were unsuccessful, but the fact that USACE twice
attempted to have the deficiencies corrected calls into question its claim that repair of
the deficiencies was not needed because the intent of officials at the installation was
to deconstruct the facilities. Moreover, the documentation provided by USACE included
no evidence that officials at the installation informed USACE they intended to
deconstruct the facilities and, as such, did not want the deficiencies corrected.
Despite the deficiencies not being resolved, the same contracting officer approved a
final payment of $100,000 to the contractor citing 'satisfactory' performance. Our
review of the documentation indicates that there is no evidence that the contracting
officer provided any justification for making the determination that the contractor’s
performance was satisfactory. The results of my office’s analysis are contained in the
enclosure to this letter. Based on this analysis, and in the absence of further
documentation, justification, and support showing why the decision was made to
accept the substandard work on these incinerators and authorize final payment to the
contractor, SIGAR has opened a preliminary investigation into this matter.




SIGAR 14-42-AL/FOB Sharana Incinerators
Should you have any questions or need additional information, please contact Douglas
J. Domin, Assistant Inspector General for Investigations at                  or
                             . Thank you in advance for your attention to this matter.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction




SIGAR 14-42-AL/FOB Sharana Incinerators
USACE Area Engineer and Contracting Officer Did Not Hold Contractor
Accountable for Poor Construction
SIGAR requested all of the supporting documentation associated with USACE’s internal inquiry into
the construction of the incinerator facility at FOB Sharana. In response, USACE provided the
following:
•        Inspector’s Quality Assurance Report dated June 20, 2012.
•        Two letters from the contractor responsible for building the incinerator system, dated
         September 2012.
•        One undated certificate of operation and maintenance training validation.
•        One memorandum dated December 21, 2012, indicating transfer of the project keys and
         operation and maintenance manuals for the incinerator system to the U.S. military.
•        Two emails from base and division engineering personnel, dated November 2013, discussing
         construction of the incinerators.
•        Transfer and Acceptance of Department of Defense Real Property form, indicating the
         transfer of the incinerator system to the U.S. military, dated December 16, 2012.
•        List of closeout supporting documentation including, among other things, a closeout
         procedures checklist, Release of Claims Document, and final payment information.
The documentation provided by USACE did not include any specific record of evaluation or overall
assessment, which would have established that a determination was made that the incinerator at
FOB Sharana was constructed in accordance with contract technical specifications. Further, the
documentation did not contain an assessment showing that USACE contracting personnel assigned
to this contract appropriately performed their assigned duties on the contract, as reported by USACE
in its comments to SIGAR’s December 2013 report.
Consistent with findings in SIGAR’s initial inspection report on the Sharana incinerator system, 3 the
documentation includes evidence indicating that deficiencies in the construction of the incinerator
system were identified as early as the August of 2012 and that there was no evidence that the
contractor responsible for constructing the system took action to resolve these issues. Specifically, a
technical inspection was conducted by Fluor 4 inspectors prior to August 26, 2012. As stated in our
report, this inspection found numerous electrical deficiencies that could pose safety hazards. Fluor
identified 116 deficiencies and estimated it would cost approximately $1 million to fix them.
In response to the findings of this technical inspection, a USACE contracting officer representative
sent a letter dated September 15, 2012, to International Home Finance & Development LLC (IHFD),
the contractor constructing the $5.4 million facility. In the letter, the contracting officer’s
representative stated that final acceptance of the incinerator system for the contract would be made
when all work was completed and all deficiencies corrected.
On September 19, 2012, IHFD responded to USACE and indicated that it had not taken action to
address any of the 116 deficiencies that Fluor identified. A USACE contracting officer sent a letter to

3
 SIGAR Inspection Report 14-13, Forward Operating Base Sharana: Poor Planning and Construction Resulted in $5.4
Million Spent for Inoperable Incinerators and Continued Use of Open-Air Burn Pits, Dec. 16, 2013.
4
 Under the U.S. Army Logistics Civil Augmentation Program, the contractor Fluor provides the Department of Defense and
coalition forces with multi-functional logistical services during contingency operations, such as the operation of incinerators
at FOB Sharana.


SIGAR/FOB Sharana Incinerators                                                                                          Page 1
Fluor dated November 12, 2012, noting that IHFD’s response to many of the items identified in the
technical inspection were similar to “Metal outlet boxes were inspected [by the government] after
installation and found to be suitable for the application.” According to the USACE contracting officer’s
letter, this type of response was not in accordance with IHFD’s contractual obligations. Specifically,
the USACE contracting officer noted that, in accordance with Federal Acquisition Regulation 52.246-
12, government inspections and tests are for the sole benefit of the government and do not
constitute or imply acceptance, or affect the continuing rights of the government after acceptance of
the completed work.
Further, USACE’s contracting officer noted that in response to several of the deficiencies identified in
the technical inspection, IHFD stated that project features, such as electrical and plumbing facilities
that were noted as damaged in the technical inspection, were not damaged prior to IHFD leaving
site. The contracting officer noted that, according to contract requirements, IHFD was still
responsible for the work until final acceptance of the project. The contracting officer also noted that
as of his letter dated November 12, 2012, he was not aware of the government relieving IHFD of its
contractual responsibilities for protection of the work until final acceptance. Finally, the contracting
officer stated that, although 86 days had passed since IHFD had been made aware of the
deficiencies identified in the technical inspection, USACE was not aware of any replacement or
corrective work taking place at the incinerator facility.
In spite of these deficiencies identified in the technical inspection and efforts made by the USACE
contracting officer to get IHFD address these deficiencies, the incinerator system was transferred by
USACE to FOB Sharana on December 17, 2012, with no evidence of actions taken by the contractor,
USACE, or USFOR-A to address the deficiencies identified in the technical inspection. The transfer
document was signed by a USACE Area Engineer. Further, in a December 17, 2012, performance
evaluation conducted by the same USACE Area Engineer who signed the transfer document and the
same contracting officer who wrote the November 12, 2012, letter to IHFD stating that it must
address the deficiencies identified by Fluor, USACE found that, “After a review of all the contractor
provided information and Contract data, the overall evaluation is revised to satisfactory. The project
was indeed that in the final result.” The USACE evaluation also noted that “Contractor performed at
the minimum satisfactory level.” There is nothing in the documentation provided by USACE that
explains why or under what circumstances the overall evaluation was changed to satisfactory.
On December 24, 2012, the Area Engineer and the contracting officer both signed the final Payment
Estimate for the incinerator project that authorized the final payment of $100,000 to the contractor,
to be paid by January 29, 2013. Further, on January 3, 3013, the USACE Area Engineer signed a
Final Payment Certificate, which stated that all contract requirements had been satisfactorily met
and that the government had no outstanding claims against the contractor in connection with its
work on the incinerator system.




SIGAR 14-42-AL/FOB Sharana Incinerators
